CERTIFICATE OF SERVICE
NO. TBD
Roy Sheridan
Petitioner(s)
v.
DLJ Mortgage Capital, Inc.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the ROY
SHERIDAN PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Kyle R. Waldner
Quintairos Prieto Wood & Boyer
1000 Blackbeard's Hill
Suite 10
St. Thomas, VI 00802
(340) 693-0230
kwaldner@qpwblaw.com
Counsel for DLJ Mortgage Capital, Inc.

Lucas DeDeus

March 19, 2021
SCP Tracking: Boykin-3004 Altona and Welgunst-Cover White

